<html>
<title> - H.R. 2649, SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
      H.R. 2649, SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           September 28, 2004

                               __________

                           Serial No. 108-73

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-150                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Johnny Isakson, Georgia, Vice        Dale E. Kildee, Michigan
    Chairman                         John F. Tierney, Massachusetts
John A. Boehner, Ohio                Ron Kind, Wisconsin
Thomas E. Petri, Wisconsin           David Wu, Oregon
Michael N. Castle, Delaware          Rush D. Holt, New Jersey
Sam Johnson, Texas                   Betty McCollum, Minnesota
Fred Upton, Michigan                 Carolyn McCarthy, New York
Vernon J. Ehlers, Michigan           Chris Van Hollen, Maryland
Patrick J. Tiberi, Ohio              Tim Ryan, Ohio
Ric Keller, Florida                  Major R. Owens, New York
Tom Osborne, Nebraska                Donald M. Payne, New Jersey
Tom Cole, Oklahoma                   Robert E. Andrews, New Jersey
Jon C. Porter, Nevada                Ruben Hinojosa, Texas
John R. Carter, Texas                George Miller, California, ex 
Phil Gingrey, Georgia                    officio
Max Burns, Georgia


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 28, 2004...............................     1

Statement of Members:
    Kildee, Hon. Dale E., Ranking Member, Subcommittee on 21st 
      Century Competitiveness, Committee on Education and the 
      Workforce, prepared statement of...........................     4
    Porter, Hon. Jon, a Representative in Congress from the State 
      of Nevada..................................................     2
        Prepared statement of....................................     6

Statement of Witnesses:
    Asselin, Chief Butch, Chief of Police, Skowhegan Police 
      Department, Skowhegan, Maine, on behalf of Fight Crime: 
      Invest in Kids, Washington, DC.............................    18
        Prepared statement of....................................    20
    Belak, Barbara, Assistant to the Associate Superintendent for 
      Human Resources, Clark County Schools, Las Vegas, Nevada...     7
        Prepared statement of....................................     9
    Dean, Dr. William, Superintendent, Frederick County Public 
      Schools, Winchester, Virginia..............................    16
        Prepared statement of....................................    17
    Uzzell, Donna, Director, Criminal Justice Information 
      Services, Florida Department of Law Enforcement, 
      Tallahassee, Florida.......................................    11
        Prepared statement of....................................    13
        Additional statement submitted for the record............    29

.        H.R. 2649, SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT

                              ----------                              


                      Tuesday, September 28, 2004

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon [Chairman of the Subcommittee] presiding.
    Present: Representatives McKeon, Porter, and Holt.
    Staff Present: Kevin Frank, Professional Staff Member; 
Catharine Meyer, Legislative Assistant; Whitney Rhoades, 
Professional Staff Member; Krisann Pearce, Deputy Director of 
Education and Human Resources Policy; Rich Stombres, Assistant 
Director of Education and Human Resources Policy; Brad Thomas, 
Legislative Assistant; Deborah L. Samantar, Committee Clerk/
Intern Coordinator; Denise Forte, Legislative Associate/
Education; Ricardo Martinez, Legislative Associate/Education; 
Alex Nock, Legislative Associate/Education; and Joe Novotny, 
Legislative Associate/Education.
    Chairman McKeon. A quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Workforce will come to order.
    We are holding this hearing today to hear testimony on H.R. 
2649, the Schools Safely Acquiring Faculty Excellence Act of 
2003.
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and the Ranking Minority Member of the 
Committee. Therefore, if other Members have statements, they 
will be included in the record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    I think it was several months ago we were out in Nevada and 
held a hearing on this bill at the request of Mr. Porter. And 
it was the first I learned of the problem that they were having 
out there, where they had to hire 2,000, 2,500 teachers a year, 
and how difficult it was to really verify the character of some 
of the teachers. And so I thought it was an outstanding thing 
that Mr. Porter was doing in putting forward this bill.
    And when he asked if we would hold a hearing here in 
Washington, I thought it was very important that we do so. With 
that, I would like to turn to Mr. Porter and have him give the 
opening statement, if he would, to begin this hearing.

 STATEMENT OF HON. JON C. PORTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Porter. Good morning. Thank you, Mr. Chairman. I 
appreciate you holding this really important hearing in our 
Committee on 21st Century Competitiveness. I would like to 
thank you all for joining us today so we can discuss this 
important topic and find ways to find a safe place for all of 
our children across the country.
    I would also like to thank our distinguished panel of 
witnesses who we will be introducing shortly. Students, 
parents, teachers and taxpayers have made great strides in the 
past 4 years in bringing better educational services to our 
elementary and secondary school children. While we continue to 
see the product of these efforts, there are still several 
aspects that remain problematic. Chief among these is the 
safety of children in our schools. The dangers that threaten 
our children are widespread, from the threat of terrorism, to 
the presence of sexual predators in the classroom, and in the 
hallways of our campuses.
    We are here today to explore ways to prevent this last type 
of abuse. In May, with the help of the Chairman, this 
Subcommittee held a field hearing in my home district, Clark 
County, Nevada, where we heard about the issues that currently 
face the fast-growing school districts as they attempt to hire 
large numbers of highly qualified, reliable individuals to fill 
the important positions that allow our children to succeed.
    Many school districts around the Nation rely on out-of-
State recruitment of teachers in order to meet the standards 
and the needs of those growing communities. In order to ensure 
students' safety, many school districts require potential hires 
to be fingerprinted for background checks through the FBI.
    However, current practice often results in incomplete data 
for noncriminal purposes. The Clark County School District, the 
school district that I represent, is constantly faced with 
these issues. As the district grows an average of 15,000 new 
students a year, we need to hire over 2,000 new teachers. We 
have one of the fastest growing school districts where we also 
need to build 18 new schools in a given year. Imagine the 
challenges.
    The majority of teachers that we have hired come from 
outside of the state, because we are a small state. But, there 
are other States that have similar challenges with their 
growth. We depend upon other States to share with us any 
information that will help remove the threat of sexual 
predators in our classrooms. As recently as this summer, 
charges of sexual abuse by individuals employed by the school 
district became public.
    There must be zero tolerance for this type of behavior, and 
I believe that Congress has the ability to make significant 
strides in reducing the occurrence of sexual assault in our 
schools.
    As I mentioned earlier, it is just not Clark County, 
Nevada, it is a problem across the country. And while I see no 
reason to oppose the intent of the legislation, I am also aware 
that we need to make some adjustments to the mechanisms that 
have been suggested.
    I look forward to working on this legislation with all of 
the stakeholders so that we can effectively make strides in 
improving this situation.
    Mr. Chairman, the National Crime Prevention and Privacy 
Compact signed into law on October 10th of 1998, established an 
infrastructure by which States can exchange criminal records 
for noncriminal justice purposes. The Compact organizes an 
electronic information sharing system among the Federal 
Government and the States to exchange criminal history records 
for noncriminal justice purposes, such as background checks for 
governmental licensing and employment.
    Under the Compact, the FBI and the member States agree to 
maintain detailed data bases of their respective criminal 
history records and to make them available to the Federal 
Government and to member States for authorized purposes.
    The Compact requires the FBI to permit use of the national 
identification index and the national fingerprint file by each 
member State and to provide, in a timely fashion, Federal and 
State criminal history records to requesting member States.
    It also requires member States to provide information and 
records for the national identification index and the national 
fingerprint file and to provide criminal history records in a 
timely fashion through criminal history repositories of other 
member States and the Federal Government for noncriminal 
justice purposes.
    As a result, when the Compact member States apply for a 
criminal history background check, they receive information 
from all participating States with a single application. The 
legislation we are examining today would require States to 
partake in this nationwide information sharing system that 
would provide human resources directors and administrators with 
the background information that they need to hire qualified 
individuals without records of sexual abuse to serve in our 
schools and to teach our children.
    Unfortunately only 21 States have currently ratified this 
Compact. 21 States. While the remaining 29 States still have 
the opportunity to ratify this Compact, I believe that we must 
encourage this action with thoughtful and effective 
legislation. By providing a more compelling reason to join the 
Compact, H.R. 2649 would close one of the cracks through which 
potentially harmful individuals might slip.
    As we examine H.R. 2649, the Schools Safely Acquiring 
Faculty Excellence Act of 2003, I urge the Subcommittee to 
consider the importance of a safe learning environment. But I 
would also like to gain greater insight in how this Committee 
can craft legislation that best addresses this very important 
issue.
    The immediate and long-term harm that these few 
unscrupulous individuals can cause is immense. Certainly the 
immediate physical affects of sexual abuse can be devastating. 
That said, the long-term psychological affects have proven to 
be incredibly harmful throughout the life of the victim of the 
crime.
    I believe we can all agree that these atrocities and 
atrocious acts must be removed from our schools, and our 
children should be able to attend school without the fear of 
this deprived behavior. It is my hope that we can learn from 
our witnesses today about the scope of the problem, as well as 
some of the best practices currently being used to deal with 
this issue.
    I would also like to point out to my colleagues that--the 
fact that is a very small number of individuals that are 
endangering the security of our children. We have many, many 
outstanding teachers across this country, the best of the best 
are in our school districts, but there are a few.
    With the vast majority of teachers and staff, our children 
are safe and of course in good hands. But we must, however, 
ensure that these few corrupt individuals are unable to enter 
our schools and abuse our children.
    Mr. Chairman, I again say thank you for convening this 
panel of witnesses who can help this Committee further 
understand the need to protect our children from any 
individuals who might wish to harm them, but also from the 
experts that are with us today. I look forward to working with 
the Committee on this important legislation in the future, and 
am anxious to hear our testimony today. Again, thank you, Mr. 
Chairman.
    Chairman McKeon.  Mr. Kildee is not able to be with us here 
today, but we will let him insert his statement in the record.
    [The information referred to follows:]

Statement of Hon. Dale E. Kildee, Ranking Member, Subcommittee on 21st 
   Century Competitiveness, Committee on Education and the Workforce

    Good morning, today marks the second time this subcommittee has 
held a hearing on H.R. 2649. While this legislation deserves the 
Subcommittee's consideration just as much as any other bill, I am not 
sure what the Subcommittee might learn that it didn't learn in May of 
this year. Regardless, I look forward to joining my Chairman and friend 
as we renew our discussion of this bill.
    H.R. 2649 has been introduced by our colleague Representative 
Porter from Nevada. I am aware that the educational system in Las Vegas 
is facing an especially difficult situation. With the rapid population 
growth in and around Las Vegas, I am sure that hiring a sufficient 
number of teachers is a real challenge. I am equally convinced that 
Nevada's school administrators want to ensure that children do not have 
teachers who have a criminal history.
    While background checks on teachers and other personnel that deal 
with children is growing in use, several questions remain about this 
bill.
    This bill denies education funds to a State which doesn't comply 
with its requirements. Is this a realistic requirement for States to 
meet in one year? Do States need to pass legislation to meet this 
requirement? Is it fair to the State Education Department to put their 
funds at risk when they have little or no control over whether a State 
will participate?
    The bill also requires information on individuals suspected of a 
felony, as far back as 15 years. I have been told that reporting this 
information may be impossible for some States.
    While I am aware that the Subcommittee does not intend to markup 
this legislation before the end of this Congress. I believe these 
concerns do need to be heard and addressed.
    In addition, I think it is important that we explore other ways of 
helping schools maintain safe and healthy environments for their 
children. This includes the hiring of additional counselors and 
increasing efforts to reduce bullying. Leading school safety experts 
believe that any program focused on the safety of students must include 
anti-bullying programs and techniques. These experts have found that 
the root cause of some of the worst school safety disasters were that 
the perpetrators were bullied or did not receive appropriate counseling 
or intervention when they needed it. I hope Members keep this in mind 
in our discussion today.
    In conclusion Mr. Chairman, I look forward to hearing from today's 
witnesses and yield back the balance of my time.
                                 ______
                                 
    Chairman McKeon. I now yield to Mr. Porter for the purpose 
of introducing our witnesses.
    Mr. Porter. Thank you, Mr. Chairman. We do have experts 
with us today that can share with us firsthand the challenges 
that our schools are facing and our families are facing.
    With us today is a special guest from Clark County, Nevada, 
Ms. Barbara Belak, who is the assistant to the associate 
superintendent for human resources in the Clark County School 
District in Las Vegas, Nevada.
    Prior to assuming this position, in July of 2003, she 
served the Clark County School District in numerous other 
capacities. She began her career teaching elementary school and 
special education students. As a teacher she developed an 
interest in teacher-management issues. As a result, she worked 
for 2 years on employee bargaining issues while in special 
assignment to the assistant superintendent, and served as 
director of employee-management relations.
    She also served as past president of the Las Vegas Teachers 
Association for 2 years, as a professional advocate for the 
organization for over 5 years. Welcome, Barbara. Appreciate you 
being here.
    We also have Ms. Donna Uzzell. For the past 8 years she has 
been the director of Criminal Justice Information Services in 
the Florida Department of Law Enforcement. In this position, 
she oversees the missing children information clearinghouse in 
the Crimes Against Children Program, and leads the Department's 
efforts to provide telecommunications capabilities, training 
and documentation analysis of criminal activity for law 
enforcement throughout the State.
    She has been recognized for her expertise in child safety, 
and juvenile justice issues. She is a member of Search a 
consortium of criminal justice agencies, and is currently 
chairperson of the National Crime Prevention and Privacy 
Compact Council, and an appointee to the FBI's criminal justice 
information service policy advisory board.
    And immediately to her left is Dr. William Dean. Dr. Dean 
has been the superintendent of the Frederick County Public 
Schools, in Frederick County, Virginia, since July 1998. Prior 
to his service with Frederick County, Dr. Dean served 8 years 
as superintendent of the Grand Haven Public Schools in Grand 
Haven, Michigan, 4 years as superintendent of the Rapid City 
School District in Rapid City, South Dakota, and for 4 years as 
assistant superintendent for instruction in Ft. Collins, 
Colorado.
    Dr. Dean has also served as the assistant State 
superintendent with the Colorado Department of Education. He 
began his career teaching elementary school in Michigan. 
Additionally, Dr. Dean is an active member of the American 
Association of School Administrators.
    And to Dr. Dean's left is Mr. Butch Asselin. He is 
currently the chief of police for Skowhegan Police Department 
in Skowhegan, Maine. He was promoted to the position in 1997 
after serving 22 years with the Department as a patrol officer, 
detective and patrol sergeant.
    He has been an active member of the Maine Chiefs of Police 
Association, serving as the organization's president from 
September 2003 to September of 2004, also an active member of 
the Fight Crime: Invest in Kids, an organization of law 
enforcement officials dedicated to preventing crime and 
violence.
    Before the witnesses begin their testimony, I would like to 
remind the Members that we will be asking questions of the full 
panel after we have heard their presentations. Thank you.
    [The prepared statement of Mr. Porter follows:]

Statement of Hon. Jon C. Porter, A Representative in Congress from the 
                            State of Nevada

    Good Morning. Thank you, Chairman McKeon, for holding this 
important 21st Century Competitiveness Subcommittee hearing, and thank 
you all for joining us as we discuss this important topic. I would also 
like to thank our distinguished panel of witnesses, who will be 
introduced shortly.
    Students, parents, teachers and taxpayers have made great strides 
in the past four years in bringing better educational services to our 
elementary and secondary school children. While we continue to see the 
product of these efforts, there are still several aspects that remain 
problematic. Chief among these is the safety of children in our 
schools. The dangers that threaten our children are widespread, from 
the threat of terrorism to the presence of sexual predators in the 
classrooms and hallways of our campuses. We are here today to explore 
ways to prevent this last type of abuse.
    In May, this Subcommittee held a field hearing in my home district 
of Clark County, Nevada, where we heard about the issues that currently 
face fast-growing school districts as they attempt to hire large 
numbers of highly-qualified, reliable individuals to fill the important 
positions that allow our children to succeed. Many school districts 
around the nation rely on out-of-State recruitment of teachers in order 
to meet the needs of their growing communities. In order to ensure 
students' safety, many school districts require potential hires to be 
fingerprinted for background checks through the FBI. However, current 
practice often results in incomplete data for non-criminal purposes.
    The Clark County School District, the school district that I 
represent, is constantly faced with these issues. As the district grows 
by an average of 15,000 students per year, we need to hire an average 
of 2,000 new teachers. The majority of these teachers come from outside 
of the state. We depend upon other states to share with us any 
information that will help remove the threat of sexual predators in our 
classrooms. As recently as this summer, charges of sexual abuse by 
individuals employed by the school district became public. There must 
be zero tolerance for this type of behavior. I believe that Congress 
has the ability to make significant strides in reducing the occurrence 
of sexual assault in our schools. While I see no reason to oppose the 
intent of my legislation, I am aware of some of the flaws in the 
mechanism that it uses. I look forward to working on this legislation 
with all stake holders so that we can effectively make strides in 
improving this situation.
    The National Crime Prevention and Privacy Compact, signed into law 
October 10, 1998, established an infrastructure by which States can 
exchange criminal records for non-criminal justice purposes. The 
Compact organizes an electronic information sharing system among the 
federal government and the States to exchange criminal history records 
for non-criminal justice purposes, such as background checks for 
governmental licensing and employment. Under the Compact, the FBI and 
the member States agree to maintain detailed databases of their 
respective criminal history records and to make them available to the 
federal government and to member States for authorized purposes.
    The Compact requires the FBI to permit use of the national 
identification index and the national fingerprint file by each member 
State and to provide, in a timely fashion, federal and State criminal 
history records to requesting member States. It also requires member 
States to provide information and records for the national 
identification index and the national fingerprint file and to provide 
criminal history records, in a timely fashion, to criminal history 
record repositories of other member States and the federal government 
for non-criminal justice purposes. As a result, when Compact member 
States apply for a criminal history background check they receive 
information from all participating States with a single application.
    The legislation we are examining today would require States to 
partake in this nation-wide information sharing system that would 
provide human resources directors and administrators with the 
background information that they need to hire highly qualified 
individuals without records of sexual abuse to serve in our schools. 
Unfortunately, only 21 States have currently ratified this Compact. 
While the remaining 29 States still have the opportunity to ratify this 
Compact, I believe that we must encourage this action with thoughtful 
and effective legislation. By providing a more compelling reason to 
join the Compact, H.R. 2649 would close one of the cracks through which 
potentially harmful individuals might slip.
    As we examine H.R. 2649, the Schools Safely Acquiring Faculty 
Excellence Act of 2003, I urge the Subcommittee to consider the 
importance of a safe learning environment. I would also like to gain 
greater insight into how this Committee can craft legislation that best 
addresses this important issue.
    The immediate and long-term harm that these few unscrupulous 
individuals can cause is immense. Certainly, the immediate, physical 
effects of sexual abuse can be devastating. That said, the long term 
psychological effects have proven to be incredibly harmful through out 
the life of the victim. I believe we can all agree that these atrocious 
acts must be removed from our schools, and that our children should be 
able to attend school without the fear of this depraved behavior.
    It is my hope that we can learn from our witnesses today about the 
scope of the problem, as well as some of the best practices currently 
being used to deal with this issue. I would also like to point out to 
my colleagues the fact that a very small number of individuals can 
endanger the security of all our students. With the vast majority of 
teachers and staff, our children are safe and in good hands. We must, 
however, ensure that these few, corrupt individuals are unable to enter 
our school and abuse our children.
    Mr. Chairman, I thank you again for convening this panel of 
witnesses who can help this Committee further understand the need to 
protect our children from any individual who might wish them harm. I 
look forward to working with the Committee on this important 
legislation in the future and am anxious to hear the testimony of our 
four witnesses today.
                                 ______
                                 
    Chairman McKeon.  Thank you very much. We have a little 
light there in front of you that goes on green, and when you 
have a minute left, yellow, and red. But as you can see, we 
don't have too many questioners here today.
    So feel free, don't worry too much about the time. We will 
be fine. Let's hear first from Ms. Belak.

    STATEMENT OF BARBARA BELAK, ASSISTANT TO THE ASSOCIATE 
 SUPERINTENDENT FOR HUMAN RESOURCES, CLARK COUNTY SCHOOLS, LAS 
                         VEGAS, NEVADA

    Ms. Belak. Thank you. Good morning, Mr. Chairman, Members 
of the Committee. On behalf of the Clark County School 
District, which is the Nation's sixth largest school district, 
I thank you sincerely for this opportunity to present this 
information to your Committee.
    I do so out of a strong belief in an ideal that I hope we 
all share, that all students in our Nation's schools have the 
right to be educated by dedicated professionals, who will teach 
them, inspire them and nurture them, not target, victimize or 
abuse them.
    With regard to the language in H.R. 2649, the Clark County 
School District does have some serious reservations about the 
prohibition consequences in Provision A of Section 3. We fully 
support, however, the provisions described in Section 3(b), and 
we commend the Committee for considering this important issue.
    I am deeply saddened to have to admit that CCSD has found 
itself in the news media too often, as another employee is 
arrested for sexual misconduct with a student. Besides the 
obvious embarrassment to the school district and the effect 
that has on the public trust in our schools, the real tragedy, 
as always, is the harm done to the victim, a child, one who has 
been entrusted to our care.
    Even if the sharing of the criminal information as covered 
in H.R. 2649 would result in only one less child predator in 
our schools, I would still be glad to be here today to testify 
on behalf of it.
    For background purposes, I would like to share some 
contextual data with you. Geographically, the Clark County 
School District in Las Vegas is roughly the size of the States 
of Connecticut and Delaware combined. With the 14 new schools 
that we just opened last month, we now have over 300 school 
sites, including everything from a one-teacher schoolhouse in 
Good Springs, to urban high schools that have over 3,000 
students. In less than 20 years, we have built nearly 160 new 
schools.
    We in human resources have the daunting task of staffing 
those 300 schools. We generally hire between 1,500 and 2,000 
new teachers each year, not to mention support staff and 
administrators. However, Nevada's higher education system only 
graduates approximately 600 new teachers each year.
    So, like many other districts, we have to turn to other 
States to find the teachers to bring to our classrooms and to 
our students. In recruiting for the current school year, we 
sent approximately 170 recruiters to 39 States, and we maintain 
a dynamic Web site so that anyone who has Internet access can 
learn about our growing district, and consider Las Vegas for 
their teaching career.
    As a result, we have already hired over 1,000 teachers for 
the 2004-2005 school year alone from outside the State of 
Nevada, and we are still hiring.
    Other data, unfortunately, are more unsettling to consider. 
Every school year, CCSD initiates dismissal proceedings against 
employees for incidents involving controlled substances. Every 
year we dismiss employees for incidents involving violence 
against students. And each year, employee dismissal proceedings 
are initiated for incidents involving sexual misconduct with 
students.
    The harsh realty is this: CCSD has over 16,000 teachers 
spread throughout its classrooms. If only 1 percent of the 
teachers' commit misconduct egregious enough that it brings 
harm to a child, that is 160 teachers.
    If only 1/10 of 1 percent commit such misconduct, that is 
still 16 teachers. And if only 1/100 of 1 percent of our 16,000 
is a sexual predator, that is still 1 or 2 teachers who may 
sexually molest in the coming year, and that is one or two too 
many.
    Having been both a union advocate who assisted teachers 
accused of such misconduct, and an administrator involved in 
the disciplinary action taken against those teachers, I could 
provide you with some specific scenarios, but I am hoping today 
that that is not necessary, because I hope I am preaching to 
the choir.
    The question is not whether or not we must accept a certain 
percentage of bad apples as the inevitable reality of this 
imperfect world, the question is, what can we do to better 
identify those bad apples and keep them away from our schools?
    It has often been said knowledge is power. In this 
technological age, that has been translated into information is 
power; cliches perhaps overused, but true nonetheless.
    School districts need complete information on the 
applicants who are looking to work in our schools. We need to 
know about the domestic battery arrests. We need to know about 
the drug arrests. And we need to know about the arrests for 
lewdness with a minor. Please note that I deliberately used the 
word ``arrests,'' not ``convictions.'' We certainly recognize 
that innocent people can be accused falsely.
    But, if Mr. Jones was arrested for lewdness with a minor in 
New Jersey in 1988, and again in Florida in 1992, and again in 
Mississippi in 1997, and again in Oregon in 2002, would you 
want your son or daughter in Mr. Jones's classroom?
    CCSD routinely asks approximately 20 background questions 
related to misconduct on its teacher application forms, and we 
fingerprint everyone we hire. We even fingerprint the volunteer 
coaches. But we need to do so with the confidence that the 
report that comes back is complete, that it includes arrest and 
conviction information from all States, not just some of them, 
especially with the State-to-State mobility that we enjoy in 
this great Nation.
    School districts everywhere are hiring employees who will 
spend hours each day working with, supervising and guiding 
children, oftentimes alone. It is imperative that those 
districts be made aware of any and all arrests for and 
convictions of felonies and crimes involving violence or 
controlled substance, child abuse, or sexual misconduct.
    In closing, I would like to express my gratitude for the 
opportunity to present this testimony, and I would like to 
refer the Committee to my written testimony, which included 
additional information. Thank you very much for your time and 
for considering this important issue.
    Chairman McKeon. Your complete written testimony will be in 
the record. Thank you very much.
    [The prepared statement of Ms. Belak follows:]

 Statement of Barbara Belak, Assistant to the Associate Superintendent 
      for Human Resources, Clark County Schools, Las Vegas, Nevada

    Good morning, Mr. Chairman, and distinguished members of the 
Committee.
    As the representative today of the nation's 6th-largest school 
district, I would like to thank you sincerely for the opportunity to 
present this information to you today. I do so out of a strong belief 
in an ideal that I hope we all share: the ideal that all students in 
our nation's schools have the right to be educated by dedicated 
professionals who will teach them, inspire them, and care for them--not 
target, victimize or abuse them.
    On the bright side, not long ago, we had some discussions with a 
private security company regarding employee background checks. As a 
result of those discussions, the president of the company concluded, in 
essence, that the Human Resources Division of the Clark County School 
District (CCSD) already does everything in its power to protect its 
students and screen out undesirable job applicants. That's good news 
coming from an outside company that would have loved to sell its 
services to us. The bad news is: it isn't enough.
    I am deeply saddened to admit that the Clark County School District 
has found itself in the news media far too often as the public is 
informed that another school district employee has been arrested for 
sexually molesting a student. Besides the obvious embarrassment to the 
district and the deleterious effect on the public trust in our schools, 
the real tragedy, as always, is the harm done to the victim--a child--
one entrusted to our care. In addition to the trauma of the actual 
incident--or incidents, as is often the case--the child is subsequently 
subjected to re-living it over and over again, in everything from 
repeated police interviews and school administrative interviews, to 
employee dismissal arbitrations and criminal court trials. Even if the 
sharing of criminal information as covered in HR 2649 would only keep 
one single child predator away from the schools, I would still want to 
be here today to support this bill.
    To provide you with a background context for our position, I would 
like to note the following data.
First, statistics you may find interesting:
    The Clark County School District is a somewhat complex school 
system. We are a central-city school system, a suburban school system, 
and a rural school system all in one. Geographically, our district 
covers nearly 8,000 square miles, roughly the size of Connecticut and 
Delaware combined. A few months ago, I would have reported that we have 
289 schools, but now that a new school year has started, 14 new ones 
have opened, so we now have over 300 school sites. More than 200 of 
them are in Las Vegas, over 70 of them are in the surrounding suburban 
areas, and about 25 are outside the greater metropolitan area in rural 
Clark County. We have everything from the good, old-fashioned one-
teacher school-house in Goodsprings, Nevada, to urban elementary 
schools with 1,200-1,300 students, to senior high schools with over 
3,000 students, and in less than 20 years, we have built nearly 160 new 
schools. We are just now calculating our student count for this year; 
last year we approached 270,00 students!
    The Human Resources Division is charged with the daunting 
responsibility of staffing all 300 schools. Each year, CCSD generally 
hires between 1,500 and 2,000 new teachers, and that's without saying a 
word about support staff and administrators; nor does it include our 
100+ vacancies, particularly in the high needs areas of special 
education, school psychology and speech pathology.
    Meanwhile, however, Nevada's state institutions of higher learning 
only graduate about 600 new teachers per year. CCSD alone needs far 
more than what Nevada's colleges can produce, even if every single 
graduating teacher in the state came to Clark County, leaving our 
sister counties with none. So, like many other districts nationwide, we 
turn to other states to find teachers to bring to our classrooms and 
our students. In recruiting for the current school year alone, we made 
approximately 170 trips to 39 states, and we maintain a dynamic web-
site so that anyone with Internet access to the World Wide Web can 
learn about our growing district and consider teaching and living in 
Las Vegas. As a result, we have already hired over 1,000 teachers for 
the 2004-05 school year from outside Nevada, and we're still hiring.
Please consider now some facts more startling in nature:
    Every school year, the Clark County School District initiates 
dismissal proceedings against teachers and support staff for incidents 
involving controlled substances, including safety-sensitive employees 
testing positive for illegal drugs.
    Every year, we initiate dismissal proceedings against teachers and 
support staff for incidents involving violence against students.
    And every year, dismissal proceedings are initiated against 
teachers and support staff for incidents involving sexual misconduct 
with students.
    On the one hand, even if there were as many as 70 such dismissal 
actions over the last three years, an employer might be proud to 
proclaim that record. After all, out of more than 25,000 employees, 70 
dismissal actions over a three-year period equate to an approximate 
average of 23 dismissals per year--less than one-tenth of one percent 
of a 25,000-employee workforce. That's really very good!
    On the other hand, this employer feels that if CCSD dismisses on 
average 23 employees each year for incidents involving controlled 
substances, violence against children, and sexual misconduct, then we 
need to do even more than we now do to protect our students better.
    I have already mentioned our appearances in the media when 
employees are arrested for crimes stemming from misconduct with 
children in our schools. Every time it happens, the press re-caps the 
former list of arrests, using such comments as, ``This is the third 
time in the last six months . . .,'' or ``This is the ninth time in 
just three years . . .'' Often they summarize former details as well, 
reminding the public of a particular arrest or two. Each time, we are 
all reminded that the world can be very unfair for an innocent child. 
And each time, a former victim gets to re-live their own tragedy yet 
again.
Here is the harshest reality:
    The data above included teachers and support staff, but if we leave 
out total support staff figures (since many of them are in central 
offices or service centers), CCSD has over 16,000 teachers spread 
throughout its schools. If only one percent of the teachers--and one 
percent is a pretty slim margin by most standards--commit misconduct 
egregious enough that it can harm a child, that is still 160 teachers, 
with potentially many more victims. If only 1/10 of one percent commits 
such misconduct, that is still 16 teachers. Even if only 1/100th of one 
percent of our 16,000 teachers is a sexual predator, that is still one 
or two teachers who will molest one or more children in the coming 
year--just in our one district--and that is one or two too many.
    Having been both a union advocate who assisted teachers accused of 
harmful misconduct, and an administrator involved in the disciplinary 
actions taken against such teachers, I could provide you with some 
specific scenarios. But I hope that is unnecessary, because I would 
like to believe I would be preaching to the choir. The question is not 
whether or not we should accept a certain percentage of bad apples as 
an inevitable reality in an imperfect world. The question is what we 
can do to identify those bad apples better and keep them away from 
schools.
    It has often been said, particularly in business and political 
circles, that ``knowledge is power.'' In this technological age, that 
has been translated into ``information is power.'' The cliches, 
perhaps, are overused, but true nonetheless--and just as true for 
school districts as they are for business owners and elected leaders. 
School districts need complete information on the applicants who are 
looking to work in our schools. We need to know about the domestic 
battery arrests. We need to know about the drug arrests. We need to 
know about the assault and battery arrests. And we need to know about 
the arrests for lewdness with a minor. Please note that I deliberately 
use the word ``arrests,'' not just ``convictions.'' We certainly 
recognize that innocent people can be accused falsely. But if Mr. or 
Mrs. Jones was arrested for lewdness with a minor in New Jersey in 
1988, then again in Florida in 1992, then again in Mississippi in 1997, 
and again in Oregon in 2002--with or without a conviction--would you 
want your son or daughter in Mr. or Mrs. Jones' classroom getting some 
personal attention after school? CCSD may or may not be getting 
complete arrest and conviction information at present, since we 
currently process our new-hire fingerprints through our CCSD police. 
But due to factors not pertinent to this discussion, we might not 
always have our own police force, and many, many school districts 
throughout the nation never will.
    We know first-hand how powerful information can be. We know it 
because we have seen first-hand occasions when we should have been 
given information that we weren't. Sometimes it is a school district in 
a non-criminal matter that ``cuts a deal'' to ``clean a file'' in 
return for a resignation. Sometimes it is another state that 
sugarcoats, for some inexplicable reason, a confidential reference 
knowing full well and good that a teacher has engaged in misconduct 
with a student. HR 2649 won't help those cases; we have to look for 
state relief for them. But, HR 2649 can give school districts access to 
relevant information on applicants' criminal backgrounds that may be 
being withheld at present. The Clark County School District routinely 
asks about 20 different background questions related to misconduct on 
its teacher application forms, and CCSD fingerprints everyone it hires, 
from the classroom teacher to the office clerk to the volunteer coach 
(who, technically, isn't even ``hired''). But we need to do so with the 
confidence that the report that comes back is complete--that it 
includes arrest and conviction information from all states as defined 
in the bill, not just some of them, especially in light of the state-
to-state mobility we all enjoy in this country. As the demand for 
quality teachers continues to exceed the supply, we must stretch our 
recruiting efforts far across this vast country as we intensify our 
efforts to find the best teachers. Other districts may not need as many 
new hires as CCSD does, but school districts everywhere are hiring 
teachers, administrators, and support staff who will spend hours each 
day working with, supervising, and guiding children, oftentimes alone. 
It is imperative that school districts be made aware of any and all 
contacts that applicants have had with law enforcement agencies for any 
arrest for or conviction of a felony or a crime involving violence, a 
controlled substance, child abuse, and sexual misconduct or abuse.
    In closing, I would like to express my gratitude to the committee 
for the opportunity to present this testimony. Thank you very much for 
your time and for your consideration of this important legislation.
                                 ______
                                 
    Chairman McKeon. Ms. Uzzell.

     STATEMENT OF DONNA UZZELL, DIRECTOR, CRIMINAL JUSTICE 
  INFORMATION SERVICES, FLORIDA DEPARTMENT OF LAW ENFORCEMENT

    Ms. Uzzell. Thank you. I am appearing here today as the 
Chairman of the Crime Prevention and Privacy Compact Council, 
as well as director of the Florida Department of Law 
Enforcement's Criminal Justice Information Services.
    But I think it is relevant for you to know that I am also a 
former school board member for 8 years, and the mother of two 
daughters. I, like you, share a strong interest in making sure 
that when criminal background checks are done on people working 
with our children, we are able to screen out those who present 
a danger.
    What we have today is a decentralized partnership between 
the States and the FBI for the collecting, exchanging, and 
sharing of criminal history information. That decentralized 
national system is known as the Interstate Identification Index 
or III. All 50 States, the U.S. territories and Federal law 
enforcement agencies participate. The criminal history records 
for more than 48 million people are referenced in the 
Interstate Identification Index. A complex set of rules govern 
the dissemination of criminal history information in response 
to more than 156 million inquires annually for both criminal 
justice and civil purposes.
    In every instance, a complete response comes from either 
the State holding criminal history information, or the FBI, 
which provides criminal history information on behalf of the 
States, as well as other Federal law enforcement agencies.
    The passage of the Compact in 1998 by Congress was a way 
for States to improve this process. 21 States have ratified the 
Compact which requires the State to directly respond with all 
of their information when a record request is made for 
noncriminal justice purposes.
    Additionally, the FBI is a Compact participant, which means 
the FBI provides the records for States who have not yet met 
the Compact requirements.
    What is the bottom line? When a fingerprint card on a 
teacher applicant is sent to the FBI, the response is based on 
the search of information from all 50 States. Some States, and 
today the number is seven, will provide the records directly 
from their files. And for the others, the FBI will provide what 
is housed in files.
    All 50 States do submit records to the FBI and records from 
all 50 States are queried and included in the response to an 
applicant fingerprint card. So why the Compact? The best 
information is held closest to the source of the record. That 
is why when you enact Federal laws mandating background checks, 
you should encourage both State and national level checks.
    When States respond to requests for information, they can 
provide the most complete information available for the 
identified subject. For example, States may have disposition 
information in their files that is not duplicated in the FBI 
file, or additional arrest fingerprints that were rejected for 
quality when submitted to the FBI.
    When the Compact is fully implemented, the vision of a 
truly cooperative criminal justice enterprise will be realized. 
Efficiencies will be attained by eliminating unnecessary 
redundancy, quality will be easier to ensure, and States on the 
receiving end of criminal history information will have better 
information to pass on to their customers. And that information 
will be disseminated in accordance with their own State laws.
    I was also asked to mention some innovative processes in my 
State. In addition to school personnel being checked, the 
legislature in Florida has expanded that mandate to include 
contractors employed by schools. In today's world, school 
administrators should know about the vendors who are providing 
food to the school, contractors who have access to the 
ventilation and security systems. And actually, as we have 
learned from the Russian school tragedy, you can make the same 
argument for people who do school renovations. In many States, 
more and more of these services are privatized, which is why we 
chose to include them in the background requirements.
    In addition, we now retain fingerprints and check them 
against incoming arrests so that the school district is 
immediately made aware if a current employee is arrested in 
Florida. This procedure, which is followed by several States, 
and it is growing, is ineffective, a perpetual background 
check.
    Our school districts receive both State and the national 
information within 48 hours of submitting the fingerprints. We 
use secure telecommunications via the Internet to submit the 
prints electronically after State processing to the FBI, and we 
respond back using the same technology. This enables the 
schools to continue conducting their business of providing 
services and assuring bus drivers, cafeteria workers and 
schoolteachers are hired and in place while not compromising 
the safety of the school community. And this is the direction 
most States are going.
    Technology, the ease that these checks can be processed, 
and the continued improvement in the time it takes to receive a 
response has created a new awareness and interest from States. 
In fact, 45 States and the District of Columbia require 
national background checks for education personnel or teacher 
certification.
    The safety of our children is of paramount importance to 
all of us, and I appreciate the interest you have shown in the 
State's perspective on the criminal history records screening 
process and in the Compact itself. And I thank you for this 
opportunity.
    Chairman McKeon.  Thank you.
    [The prepared statement of Ms. Uzzell follows:]

   Statement of Donna Uzzell, Director, Criminal Justice Information 
 Services, Florida Department of Law Enforcement, Tallahassee, Florida

    Thank you...
    I am appearing here today as the Chairman of the National Crime 
Prevention and Privacy Compact Council, as well as the Director of the 
Florida Department of Law Enforcement's Criminal Justice Information 
Services. But I think it is relevant for you to know that I am also a 
former School Board member in Leon County Florida and the mother of two 
daughters. I, like you, have a strong interest in making sure that when 
criminal background checks are done on people working with our children 
and other vulnerable populations, we are able to screen out those 
applicants who present a danger.
    For over 80 years, the FBI has been the central point of collection 
of information about criminal offenders in the U.S. The information was 
originally collected in a single central database at the FBI, and the 
primary use of the information was to support criminal justice 
decisions. Over time, two changes have occurred: 1) the value of this 
information has been recognized for non-criminal justice screening for 
sensitive employment and licensing, and more recently, for firearm 
purchase approvals; and 2) it has become clear that a decentralized 
system for collecting and sharing this information is more effective in 
providing complete and accurate records.
    The FBI remains a key part of this system, and all 50 states, the 
U.S. territories and federal agencies participate. The decentralization 
of the criminal history files is a process that is not yet fully 
realized. Some states, only 3 actually, continue to rely on the FBI to 
maintain their records. For others, the FBI acts as a central index for 
identifying states that hold criminal records on offenders. This system 
is known as the Interstate Identification Index (triple I) and contains 
more than 48 million subjects. A complex set of rules govern the 
dissemination of criminal history information in response to more than 
156 million inquiries annually for both criminal justice and civil 
purposes. Through this index, or pointer system, states make their 
records available directly for criminal justice purposes, but some 
continue to rely on the FBI to respond on their behalf when civil 
background checks are done.
    The passage of the Compact in 1998 by Congress was a way for states 
to improve this process. Because some states have statutes or policies 
that restrict the dissemination of records for non-criminal justice 
purposes, the Compact provides the states the means to release their 
records provided the check is fingerprint based and authorized by state 
or federal law.
    Since 1998, 21 states have ratified the Compact; seven states are 
already providing their records directly for all non-criminal justice 
requests, and 15 \1\ are moving toward this final step of 
decentralization. Additionally, the FBI is a Compact participant, which 
means the FBI provides records for these background checks on behalf of 
non-Compact states as well as those Compact states that have not yet 
fully implemented this capability.
---------------------------------------------------------------------------
    \1\ Oregon provides their records directly but has not yet ratified 
the Compact
---------------------------------------------------------------------------
    What's the bottom line? When a fingerprint card on a teacher 
applicant is sent to the FBI, the response is based on a search of 
information from all 50 states. Some states, today the number is seven, 
will provide the records directly from their files, and for the others, 
the FBI will provide what is housed in its files. All 50 states do 
submit records to the FBI, and records from all 50 states are queried 
and included in the response when an applicant fingerprint card is 
submitted.
    The states obviously have the most complete information available 
to them. This is one of the reasons why it is important that federal 
laws mandating background checks you should encourage both a state and 
national level check. The concept behind the Compact and the 
decentralization of records is that the best information is held 
closest to the source of the record. When states can respond to 
requests for information by using the FBI's pointer system, they can 
provide the most complete information available for the identified 
subject. For example, states may have disposition information in their 
files that is not duplicated in the FBI file. Some will have additional 
arrests that did not meet FBI criteria or which were rejected for some 
reason when submitted to the FBI.
    We believe that the appropriate role for the FBI in the long term 
is to maintain the III--the index of criminal subjects--and for each 
state to respond directly with the records in its files. When III and 
the Compact are fully implemented, the vision of a truly cooperative 
criminal justice enterprise will be realized. Efficiencies will be 
attained by eliminating unnecessary redundancy in data capture and 
processing. Quality will be easier to ensure when records are 
maintained closer to their source.
    I was asked to respond to a few specific questions:
How does a state benefit from belonging to the Compact?
    The Compact Council provides an opportunity for a joint management 
structure and states can participate in the policy issues such as 
privacy concerns, standards, and record processing.
    Additionally, states will see an efficiency that is realized by not 
having to support their system and records housed at the FBI. The 
duplication of effort is eliminated.
    Finally, the major benefit for a state comes when other states 
ratify the Compact as the information received as a result of non-
criminal justice requests contains the best information available from 
that state.
Has belonging to the Compact assisted the State in getting information 
        for teacher background checks?
    By participating in the Compact and by encouraging other states to 
become participants the overall information available to each state on 
any authorized background check becomes more complete.
Does belonging to the Compact make the background check process more 
        effective?
    The Compact process eliminates redundant handling of records, 
reduces opportunities for error, and provides for the most complete 
records to be supplied. In particular, hiring decisions generally must 
be based on convictions, so making court disposition data available is 
truly value added. Again, the effectiveness will be fully realized 
through the expansion of the Compact, through the full participation of 
all states in this cooperative venture.
What sort of hurdles did the State have to overcome in order to join 
        the Compact? Was it worth the effort?
    Florida was one of the pilot states for decentralization therefore, 
passage of the Compact was made easy because all of the processes were 
already in place. What we hear from other states is that the major 
concerns or obstacles deal with personal privacy and the costs 
associated with making necessary programming changes. In several 
instances, these concerns were easily nullified when the legislature 
learned the records were already being distributed by the FBI and that 
that overall efficiencies from the system would outweigh any upfront 
programming costs.
    The system is not perfect and there is still work to be done. The 
changes in technology afford options to our users today that were not 
even contemplated when these systems were built. With the help of 
Congress, grants such as the Crime Identification Technology Act, or 
CITA, and the National Criminal History Improvement Program, or NCHIP, 
have had a tremendous impact on local and states agency efforts to 
improve the quality and accessibility of the nation's criminal history 
records as well as upgrade criminal justice information systems and 
identification technologies. States continue to strive to improve the 
record screening process, amid the increasing demand to use this 
information for a variety of screening purposes. The states rely on 
this funding to meet these new challenges. Additionally, state leaders 
need to be educated on the Compact so that they can make informed 
decisions on whether to participate.
    Knowing how important complete, timely and accurate criminal 
records are for teacher screening, I would urge this committee not to 
focus fully on whether the state or the FBI provides the response. 
Rather, I would urge continued support for the improvement of these 
criminal records, for improved automation of both arrest and court 
disposition reporting and for the continuing decentralization of these 
records by expansion of the Compact.
    I was also asked to provide for the committee a brief example of 
some innovative processes occurring at the state level in the area of 
school employee background checks. In Florida, we have had a statute in 
place for a number of years requiring all instructional and non 
instructional personnel to be screened. Effective this year, however, 
in addition to those personnel, the Florida Legislature has mandated 
checks for student teachers, interns, substitute teachers and 
contractors. I wanted to particularly highlight the contractors. In 
reviewing best practices for emergency preparedness plans for schools, 
it is highly recommended that school administrators know about the 
vendors who are providing food to the school and contractors who have 
access to the heating, cooling, ventilation and security systems. And 
actually, as we have learned from the Russian school tragedy, you can 
make the same argument for people who do renovations in our schools. 
According to press accounts of the incident, Russian security officials 
indicated that the gunmen and women had pre-planned extra weapons and 
explosives, smuggled into the school during rebuilding work over the 
summer holidays, and hidden them beneath floorboards. In Florida and I 
believe in many other states, more and more of these services are 
privatized which is why our state chose to include them in the 
background requirements.
    In addition to conducting state and national fingerprint based 
checks, the Florida Legislature has now required that we retain these 
prints and check them against incoming arrests so that the school 
district is immediately made aware if a current employee is arrested in 
Florida, as opposed to waiting for their 5 year recheck.
    Thanks to the funding support of Congress through NCHIP and the 
support of our state, Florida has advanced technology in this arena and 
our school districts who are conducting these checks receive the state 
and the federal information within 48 hours of submitting the 
fingerprint. In Florida, we use secure applications via the Internet to 
submit the prints electronically and respond back using the same 
technology. This enables the schools to continue conducting their 
business of providing services and assuring bus drivers, cafeteria 
workers and school teachers, are hired and in place, while not 
compromising the safety of the school community. This is the direction 
most states are going.
    There are approximately 39 other states that take advantage, in 
some form or another, of this technology and are seeing similar 
advances in facilitating the ease and timeliness of these checks. 
According to the FBI, 79% of the FBI's total non-criminal justice 
fingerprint submissions are submitted using digital technology that 
enhances the response time and eliminates the need for the paper 
fingerprint card.
    I mentioned that the use of criminal history information for the 
non-criminal justice community has seen a tremendous increase over the 
past few years. In fact, nationally at the FBI, the incoming 
fingerprints for background checks are now exceeding the incoming 
fingerprints processed for arrests. In Florida, over the past few years 
we went from 300,000 requests to now 600,000 requests. States see the 
benefit of requiring these checks for persons employed in sensitive 
positions and with vulnerable populations. The availability of 
technology, the ease in which these checks can be processed and the 
continued improvement in the time it takes to receive a response has 
created a new awareness and interest from states. In fact 45 states and 
the District of Columbia have now enacted statutes requiring federal 
background checks for education personnel or teacher certification.
    The safety of our children is of paramount importance to all of us. 
Today that is the issue we address. Of course, we all realize that 
these records have a much greater use and importance. I appreciate the 
interest you have shown in the state's perspective on the criminal 
history record screening process and in the Compact itself and I thank 
you for this opportunity...
                                 ______
                                 
    [Attachments to Ms. Uzzell's statement are located at the 
end of the hearing.]
    Chairman McKeon. Dr. Dean.

  STATEMENT OF WILLIAM DEAN, SUPERINTENDENT, FREDERICK COUNTY 
              PUBLIC SCHOOLS, WINCHESTER, VIRGINIA

    Dr. Dean. Thank you, Mr. Chairman. Mr. Porter, good 
morning. I appreciate the opportunity to speak to H.R. 2649. As 
you indicated, my name is William Dean. I am superintendent of 
schools in the Frederick County, Virginia, School District. 
This is my 7th year as superintendent in Frederick County, my 
18th year as superintendent, and my 42nd year in the 
profession.
    But, as I recall back a few years, in 1968, as a brand new 
high school principal in Michigan, I had to hire a number of 
teachers. And in particular, I hired a journalism teacher with 
impeccable credentials. Unfortunately, 6 weeks after school 
started, that teacher's photo appeared in the local newspaper. 
And I was called by one of our local ministers who said that 
the teacher that I had hired, let's call him Mr. Jones, had 
actually been married by this minister in Oregon using the name 
Mr. Smith.
    Mr. Jones, it turns out, was a bigamist and wanted in two 
States by local authorities. Now, the possibility of that 
happening 36 years later is slim, but not impossible. But it is 
significantly less possible because of safeguards that many 
States, including Virginia have enacted.
    In our local school district of nearly 12,000 students and 
2,200 employees, we follow the Virginia Code on background 
checks emphatically. All employees are fingerprinted, and using 
an electronic State system that has been merged with the FBI 
data base, we know within 30 minutes to 24 hours whether a 
potential employee has an arrest record in Virginia, or in most 
places in the United States.
    If the system finds a match, we are informed by e-mail that 
the record is being processed. That is code for essentially 
saying that somebody has an arrest record. We process more than 
500 a year at $37 per request. And perhaps 3 percent of those 
come back as record being processed.
    Generally the only error in the process is a candidate, who 
may embarrassingly confide that they did not complete the 
application honestly. We have two employees in our human 
resource office operating that system, the full-time 
equivalency of this task is approximately a quarter of an FTE.
    The Virginia State Police and our local FBI office in 
Winchester verify that not all States contribute to an 
interstate criminal network. That not all States do not 
participate creates a dilemma for school districts in all 
States.
    For example, most of us in Northern Virginia travel to a 
dozen or more States to recruit staff for our growing student 
enrollment. It would be reassuring to know that the States 
where our candidates come from participate in a national 
criminal record network so that our background checks are 
completely, not partially, reliable.
    While I agree with the intent and purpose of H.R. 2649, I 
question whether penalizing State Departments of Education by 
denying Federal education dollars is the most appropriate way 
to accomplish this worthwhile legislation. As influential as 
State Departments and State Boards of Education may be, their 
influence does not extend to directing State law enforcement to 
participate in a statewide Compact of information sharing.
    And while I think my colleagues in the superintendency and 
the boards of education who employ us would all feel better if 
H.R. 2649 were enacted, as school employees and elected 
officials, we also recognize our inability to compel law 
enforcement to accede to the bills requirements.
    So, on closer examination, perhaps the U.S. Department of 
Education may be the wrong Federal agency to endorse compliance 
with a well-intended piece of legislation. H.R. 2649 is 
important to educators who are asked to ensure that children in 
the public schools are protected from criminals whatever their 
crime.
    Let's just be sure we use the right mechanisms to see this 
legislation to fruition. Thank you very much.
    [The prepared statement of Dr. Dean follows:]

Statement of Dr. William Dean, Superintendent, Frederick County Public 
                        Schools, Winchester, VA

    Good Morning Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to speak to HR 2649. My name is Dr. 
William C. Dean and I am Superintendent of Schools in Frederick County, 
Virginia. This is my 7th year as superintendent in Frederick County, my 
18th year as a superintendent and my 42nd year in this profession.
    In 1968, as a brand new high school principal in Michigan, I hired 
a Journalism teacher with impeccable credentials. Six weeks after 
school started the teacher's photo appeared in the local paper. I was 
called by a local minister who said the teacher I hired--let's call him 
Mr. Jones--had actually been married by this minister in Oregon using 
the name Mr. Smith. Mr. Jones, it turns out, was a bigamist and wanted 
in two states by local authorities.
    The possibility of that happening 36 years later is slim--not 
impossible--but significantly less possible because of safeguards many 
states, including Virginia, have enacted.
    In our local school district of nearly 12,000 students and 2,200 
employees, we follow the Virginia code on background checks 
emphatically.
    All employees are finger printed and using an electronic state 
system that has been merged with the FBI data base, we know within 30 
minutes to 24 hours whether a potential employee has an arrest record 
in Virginia or most places in the United States. If the system finds a 
match, we are informed by e-mail that the ``Record is being 
processed.'' This usually means that someone has an arrest record.
    We process more than 500 a year, and perhaps 3% come back as 
``Record is being processed.'' The only error in the process is usually 
a candidate who embarrassingly confides they did not complete the 
application honestly. Two employees in our human resource office 
operate our system. The full-time equivalency of this task is 
approximately .25.
    The Virginia State Police verify that not all states contribute to 
an interstate criminal record network. That not all states do not 
participate creates a dilemma for school districts in all states.
    For example, most of us in northern Virginia travel to a dozen 
states to recruit staff for our growing student enrollment. It would be 
reassuring to know that the states where our candidates come from 
participate in a national criminal record network so that our 
background checks are completely, not partially, reliable.
    While I agree with the intent and purpose of HR 2649, I question 
whether penalizing state departments of education by denying federal 
education dollars is the most appropriate way to accomplish this 
worthwhile legislation. As influential as state departments and state 
boards of education may be, their influence does not extend to 
directing state law enforcement to participate in a statewide Compact 
of information sharing.
    And while I think my colleagues in the superintendency and the 
boards of education who employ us would all feel better if HR 2649 were 
enacted, as school employees and elected officials, we also recognize 
our inability to compel law enforcement to accede to HR 2649's 
requirements.
    So, on closer examination, perhaps the U.S. Department of Education 
may be the wrong federal agency to enforce compliance with a well-
intended piece of legislation.
    HR 2649 is important to educators who are asked to ensure that 
children in the public schools are protected from criminals, whatever 
their crime. Let's just be sure we use the right mechanisms to see this 
legislation to fruition.
                                 ______
                                 
    Mr. Porter. [presiding.] Thank you very much, Doctor, 
appreciate it. Chief.

STATEMENT OF CHIEF BUTCH ASSELIN, FIGHT CRIME: INVEST IN KIDS, 
                        WASHINGTON, D.C.

    Chief Asselin. Good morning, Mr. Chairman and Members of 
the Subcommittee. Thank you for the opportunity to testify 
today on school safety. My name is Butch Asselin. I have been 
in law enforcement for nearly 30 years. I spent the past 7 
years as police chief of the Skowhegan Police Department in 
Maine.
    During the past year I have served as president of the 
Maine Chiefs of Police Association. I am also a member of the 
anti crime group, Fight Crime: Invest in Kids. More than 2,000 
police chiefs, sheriffs, prosecutors and victims of violence 
from across the country, we have come together to take a hard-
nosed look at what really works to prevent school and youth 
violence and keep kids from becoming criminals.
    To help ensure that kids are safe at school, I strongly 
support criminal history background checks on individuals 
seeking employment in schools. However, today, I would like to 
focus on a widespread critical safety issue in our Nation's 
schools that demands the urgent attention of Congress.
    Bullying affects 1 out of 3 children in the 6th through the 
10th grades, and can lead to violent crime and death. A 
national survey found that nearly 1 in 6 American children in 
6th through 10th grade, more than 3.2 million children, are 
victims of bullying each year, while 3.7 million bully other 
children.
    When bullies are allowed to progress through school without 
their intimidating and violent behavior being addressed they 
often become a danger not only to the school but also to the 
whole community. A survey found out that most bullies were 
seven times more likely to carry weapons to school.
    Furthermore, the more serious bullies were also 3-1/2 times 
more likely to have been in a fight where they sustained injury 
serious enough to require treatment by a nurse or doctor. 
Bullying is an early warning that bullies may be headed toward 
more serious antisocial behavior, including violent crime.
    A study found that 40 percent of boys who were bullies in 
grades 6 through 9 had three or more criminal convictions by 
the age of 24. Moreover, victims of repeated bullying can 
explode in ways that threaten not just the bullies, but many 
others as well.
    Experts from the Secret Service were called in to help 
develop profiles of the Columbine and other school shooters. 
They found that most of the shooters had been bullied before 
choosing to attack their perceived tormentors. The Secret 
Service experts reported almost three-quarters of the attackers 
felt persecuted, bullied, threatened, or attacked or injured by 
others prior to the incident.
    In addition, one study found that boys who were frequently 
bullied were four times more likely to be suicidal, while 
frequently bullied girls were 8 times more likely to be 
suicidal.
    Fortunately there are programs that are proven to reduce 
bullying in schools. The Olweus Bullying Prevention Program has 
been implemented in several hundred schools in the United 
States and around the world. This program includes a school 
survey to determine the prevalence of bulling, training for all 
school personnel, a bullying prevention coordinating committee 
to implement the program, school rules prohibiting bullying and 
appropriate consequences, adequate adult supervisions in 
specific areas where bullying is likely to take place, 
including hallways, lunchrooms and playgrounds, class meetings 
to discuss the problem of bullying, and meetings with bullies, 
their parents and school staff and meetings with victims, their 
parents and school staff.
    The Olweus Bullying Prevention Program produced a 50 
percent reduction of bullying in Norway, and a 20 percent 
reduction when it was replicated in South Carolina. There were 
also lower rates of school misbehavior and vandalism, and 
general delinquency for students enrolled in a bullying 
prevention program, compared to students who do not receive the 
program.
    The Office of Juvenile Justice and Delinquent Prevention in 
the Substance Abuse and Mental Health Services Administration 
have recognized the Olweus Bullying Prevention Program as a 
model program.
    Five years ago, the Nation watched in horror as two 
students killed 12 classmates and a teacher before taking their 
own lives at Columbine High School. The Columbine shootings 
were a shock to our collective conscience. Never before had 
parents, especially in quiet suburbs, so questioned their kid's 
safety in school.
    Now, 5 years later, school violence continues to occur. In 
the aftermath of Columbine, and other school shootings, America 
can no longer view bullying as simply one of the rights of 
passage kids must endure. Bullying is a ticking time bomb in 
our schools and our society. Before more children are harmed, 
killed or take their own lives, Congress should facilitate the 
implementation of research proven bullying prevention programs 
throughout our Nation's schools.
    I am pleased that Representative John Shimkus, along with 
Representative Danny Davis, has introduced a bipartisan 
bullying prevention bill, H.R. 4776, which would amend the Safe 
and Drug Free Schools Act to add several bullying related 
provisions. This bill would encourage schools receiving funding 
to implement key components of the Olweus Bullying Prevention 
Program. I urge Congress to move Representative Shimkus's bill 
to enactment.
    This Committee can further help us make us all safer by 
strengthening early childhood education, child abuse, and 
neglect prevention and after school programs.
    Research confirms that law enforcement leaders know from 
our firsthand experience such programs dramatically reduce 
crime and violence. I request that the School and Youth 
Violence Prevention Plan, as well as the Bullying Prevention is 
Crime Prevention report of Fight Crime: Invest in Kids be 
entered in the hearing's record.
    Thank you for this opportunity to present our views on how 
your Committee can enhance school safety. I would be happy to 
answer any questions that you might have.
    Mr. Porter. Thank you very much, Chief, and the full panel.
    [The prepared statement of Chief Asselin follows:]

  Statement of Chief Butch Asselin, Chief of Police, Skowhegan Police 
Department, Skowhegan, Maine, on behalf of Fight Crime: Invest in Kids, 
                             Washington, DC

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify today on school safety. My 
name is Butch Asselin. I've been in law enforcement for nearly thirty 
years, and I've spent the past 7 years as police chief of the Skowhegan 
Police Department in Maine. During the past year, I served as President 
of the Maine Chiefs of Police Association. I am also a member of the 
anti-crime group Fight Crime: Invest in Kids--more than 2,000 police 
chiefs, sheriffs, prosecutors, and victims of violence from across the 
country who have come together to take a hard-nosed look at what really 
works to prevent school and youth violence and keep kids from becoming 
criminals.
    To help ensure that kids are safe at school, I strongly support 
criminal history background checks on individuals seeking employment in 
schools. However, today, I would like to focus on a widespread, 
critical safety issue in our nation's schools that demands the urgent 
attention of Congress. Bullying affects one out of three children in 
sixth through tenth grades and can lead to violent crime and death. A 
national survey found that nearly one in six American children in sixth 
through tenth grade--more than 3.2 million children--are victims of 
bullying each year, while 3.7 million bully other children.
    When bullies are allowed to progress through school without their 
intimidating and violent behavior being addressed, they often become a 
danger not only to the school, but also to the whole community. A 
survey found that the most serious bullies were seven times more likely 
to carry a weapon to school. Furthermore, the more serious bullies were 
also three-and-a-half times more likely to have been in a fight where 
they sustained an injury serious enough to require treatment by a nurse 
or doctor. Bullying is an early warning that bullies may be headed 
toward more serious antisocial behavior including violent crime. A 
study found that 40 percent of boys who were bullies in grades six 
through nine had three or more criminal convictions by the age of 24.
    Moreover, victims of repeated bullying can explode in ways that 
threaten not just the bullies but many others as well. Experts from the 
Secret Service were called in to help develop profiles of the Columbine 
and other school shooters. They found that most of the shooters had 
been bullied before choosing to attack their perceived tormentors. The 
Secret Service experts reported: ``Almost three-quarters of the 
attackers felt persecuted, bullied, threatened, attacked or injured by 
others prior to the incident.'' In addition, one study found that boys 
who were frequently bullied were four times more likely to be suicidal, 
while frequently bullied girls were eight times more likely to be 
suicidal.
    Fortunately, there are programs that are proven to reduce bullying 
in schools. The Olweus Bullying Prevention Program has been implemented 
in several hundred schools in the United Sates and around the world. 
This program includes: a school survey to determine the prevalence of 
bullying; training for all school personnel; a bullying prevention 
coordinating committee to implement the program; school rules 
prohibiting bullying and appropriate consequences; adequate adult 
supervision of specific areas where bullying is likely to take place 
including hallways, lunchrooms, and playgrounds; class meetings to 
discuss the problem of bullying; and meetings with bullies, their 
parents and school staff, and meetings with victims, their parents, and 
school staff.
    The Olweus Bullying Prevention Program produced a 50 percent 
reduction of bullying in Norway and a 20 percent reduction when it was 
replicated in South Carolina. There were also lower rates of school 
misbehavior, vandalism, and general delinquency for the students 
enrolled in the bullying prevention program compared to students who 
did not receive the program. The Office of Juvenile Justice and 
Delinquency Prevention and the Substance Abuse and Mental Health 
Services Administration have recognized the Olweus Bullying Prevention 
approach as a model program.
    Five years ago, the nation watched in horror as two students killed 
12 classmates and a teacher before taking their own lives at Columbine 
High School. The Columbine shootings were a shock to our collective 
conscience. Never before had parents, especially in quiet suburbs, so 
questioned their kids' safety in school. Now, five years later, school 
violence continues to occur. In the aftermath of Columbine and other 
school shootings, America can no longer view bullying as simply one of 
the rites of passage kids must endure. Bullying is a ticking time bomb 
in our schools and our society. Before more children are harmed, 
killed, or take their own lives, Congress should facilitate the 
implementation of research-proven bullying prevention programs 
throughout our nation's schools.
    I am pleased that Representative John Shimkus, along with 
Representative Danny Davis, has introduced a bipartisan bullying 
prevention bill, H.R. 4776, which would amend the Safe and Drug Free 
Schools Act to add several bullying prevention-related provisions. This 
bill would encourage schools receiving funding to implement key 
components of the Olweus Bullying Prevention program. I urge Congress 
to move Representative Shimkus's bill to enactment.
    This Committee can further help make us all safer by strengthening 
early childhood education, child abuse and neglect prevention, and 
after-school programs. Research confirms what law enforcement leaders 
know from our firsthand experience: such programs dramatically reduce 
crime and violence. I request that the School and Youth Violence 
Prevention Plan, as well as the ``Bullying Prevention Is Crime 
Prevention'' report of Fight Crime: Invest in Kids be entered into this 
hearing's record.
    Thank you for this opportunity to present our views on how your 
Committee can enhance school safety. I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Porter. I have numerous questions. And I will submit 
some from other members after today's hearing.
    First of all, I guess, Barbara, let me comment again that 
we appreciate you being here. I want to make it clear that 
because of the Clark County School District, we are having this 
hearing today. And we appreciate the district bringing this 
problem to the U.S. Congress.
    And yes, there are areas that need to be adjusted, but it 
is a great start. And thank you very much for being here.
    Specific to Las Vegas, it was mentioned, of course, the 
challenges that we have at home. What challenges does it 
present to the district as you ask recruits information? Do you 
find that many recruits then don't come back for a second 
interview, or what happens after you ask these specific 
questions?
    Ms. Belak. Well, it varies, since we are talking about 
hiring approximately 1,500 to 2,000 teachers. We probably look 
closer in the neighborhood of 5,000 applicants. So we have just 
about every end of the spectrum that one can imagine.
    Certainly we have some that have been known to call human 
resources to ask for clarification on some questions, and 
sometimes it is hard to imagine how one can need clarification 
when the question is: Have you ever been convicted of a crime 
involving sexual misconduct, or words to that effect?
    But, there will sometimes be conversations on the phone, 
and lo and behold, we never hear from that person again. 
However, there are unfortunately many other times when the 
person chooses to answer no to the key questions, only to find 
out later through fingerprint results, luckily, that the answer 
no was not necessarily an honest answer, and that usually 
begins a very lengthy process then of investigation. Sometimes 
it is nothing, and sometimes it ends up in a dismissal 
proceeding.
    Mr. Porter. What has been the reaction to possibly more 
senior teachers that are moving--wish to move there from other 
States? When do you put them through this questioning? Has 
there been a problem with the profession itself or do they 
encourage this information?
    Ms. Belak. No. The typical teacher out there is supportive 
of these kinds of efforts, because as I mentioned in my 
records, any time there is a headline about another teacher or 
support staff person arrested for sexual misconduct, that is 
something that embarrasses everybody and appalls everybody.
    The good teachers don't go into the profession to victimize 
children and to ruin their lives, they go into the profession 
to help them and nurture them, and they don't want the sexual 
predators in there any more than anyone else does.
    Mr. Porter. Realizing that being with the home team, I have 
an opportunity to also brag about the district. As an 
innovative school district in the country, again, sixth largest 
and one of the fastest growing, I think Clark County has done a 
phenomenal job.
    Even from the private sector perspective, if you were 
recruiting 2,500 new employees, I don't care if you are IBM or 
the Clark County School District, there is a major challenge.
    But, the reason we are here today is to elevate the 
importance of this challenge in the classroom, to make sure 
when we drop our kids off we know they are safe.
    And, Barbara, we have heard some pretty diverse opinions 
this morning as to how different States are handling the 
problem, which is really why we are here. But, from some of the 
testimony, it appears that other districts aren't having the 
problem that we are having in Nevada.
    What do you think is the real crux of the problem? Is there 
something we are missing here? If Clark County is not getting 
information, but possibly Florida is, what is happening 
different in Nevada that isn't happening in Florida?
    Ms. Belak. Well, if I knew that, we would correct it in 
Clark County. As best we can tell, we are doing everything that 
we can do. In fact, I had included in my written testimony the 
fact that we had met recently with a security firm that does do 
background checks. And as a result of that recent meeting, the 
president of the company concluded in fact in a letter to Dr. 
Rice, who is our associate superintendent, that we are already 
doing everything that is within our power to try to identify 
bad apples, if you would, and to screen them out at the 
application process.
    So that is good news for us, particularly coming from a 
private company that would love to sell us its services. But, 
even though we are doing what we can do, like I said, we not 
only fingerprint everyone we hire, we fingerprint people we 
don't hire, like the volunteers that work in our classrooms. 
But it is not enough, because people are still getting through.
    We don't know for certain if some of those people are 
getting through because they happen to have come from a State 
that is not a member of Compact, or if there is some other 
breakdown in the process. What we do believe, of course, is 
that most offenders offend again and again and again and again.
    I don't believe that they are usually caught the first 
time. I believe that when they are caught it is beyond the 
first time. So we are trying to take advantage of as many means 
as possible to get as much complete information as possible 
before we put the offender in a school setting.
    Mr. Porter. Thank you, Barbara.
    Ms. Uzzell, can you explain, in your comments you mentioned 
that sometimes States have better and more information than the 
FBI. Explain that, could you, please? What information do they 
have and how better can we share that information with other 
States?
    Ms. Uzzell. Well, like I said the information is always 
better closest to the source. So States have maybe more 
complete disposition information, and that information was not 
submitted back up to the FBI, because that may be a duplicative 
effort on the State level.
    Additionally, the FBI may have rejected a fingerprint card 
that was sent to the repository up there because of a quality 
issue. And the State may have accepted that record so, there 
may be fingerprint rejections that may not be included, 
although I have to say that they are probably small in 
comparison to numbers, a very low percentage.
    And then additional, there is what we call noncriterion 
offenses. Those would be minor offenses, for instance, city 
ordinances or county ordinances, loitering may be one, 
unfortunately prostitution may be one too where a State or an 
agency arrests under the ordinance rather than a State statute.
    And the FBI is moving now toward accepting those 
noncriterion offenses, but those hadn't been accepted in the 
past.
    Mr. Porter. So are you having similar problems in Florida 
that we are having in Nevada?
    Ms. Uzzell. No. I would have to say I don't believe that we 
are. Now, I will say that the beauty of the Compact is that the 
State can disseminate on its own State laws.
    So with that, I must say that Florida is an open records 
State. So we disseminate everything. We disseminate juvenile 
arrests, we disseminate arrests alone without conviction 
information. So every information that comes to us either from 
our own repository or from other States, because of our State 
law, is able to be passed on to the school district.
    Mr. Porter. What can we do through this legislation to help 
the States that don't have that type of information available?
    Ms. Uzzell. Well, I think the first thing that you hit upon 
was the expansion of the Compact. And from talking to other 
Compact States and non-Compact States, what has traditionally 
been helpful is the NCHIP money, because in order to become a 
Compact State, there are certain programming issues and 
regulations and requirements that they have to do in order to 
be able to make their repositories respond in the fashion that 
I had mentioned.
    So I think the continued support of NCHIP and CITA and 
other grant monies is a very good way to help States get to 
that point.
    Education is the key. And as chairman of a Compact council, 
and even my former colleague, who was chairman, we have 
continued to put non-Compact States on different committees, 
letting them see the benefits of being involved in a 
participatory process where you can make these regulations on 
behalf of the States. It is truly a decentralized process.
    Five States have enacted the Compact since 2003. That is a 
good start. And I think we just need to keep encouraging more 
States to become Compact States.
    Mr. Porter. So do you think that the umbrella of the 
Compact is good? We need to make sure that the other States 
have, either the funding or incentive to use the system as it 
has been proposed?
    Ms. Uzzell. Yes. I definitely agree with that. I also would 
suggest, and I would be very willing to help Ms. Belak on this 
issue, but if there were crimes that she was missing in a 
fingerprint check, I would be willing to help analyze what the 
problem was.
    Because, as I said, I don't understand why we are not 
seeing that in many other States. Maybe if we took a look and 
saw where the gaps were, we might be able to figure out if 
there were other problems that we are missing here at this 
meeting that we could identify to assist her.
    Mr. Porter. I appreciate your involvement in many statewide 
agencies for children. But what I have discovered in preparing 
this legislation, there is not a lot of information available 
on the subject of students and abuse in the classroom or on the 
school properties.
    There was one recently done by No Child Left Behind, which 
I think is a start. But it seems to me there is not a whole lot 
of information being compiled. And I guess as this legislation 
hopefully moves forward in some shape or form, that we get the 
proper information to help us make these decisions also.
    But I know that you are active in a fast growing State 
also. So you have similar challenges that we have in Nevada. 
And any help would be appreciated.
    Ms. Uzzell. If I may. I would say that the issues that are 
important to schools from my experience in the school board as 
well as in Florida Department of Law Enforcement is quick 
information back. As I mentioned to you, the technology that we 
have today allows that information to be available back to the 
school district within 48 hours.
    And I know in Florida, and I am sure in many other school 
districts, you know when a bus driver needs to be there on that 
side of the road, they can't be waiting for that background 
check to come back to get that bus driver hired.
    So anything we can do to continue that technology to ease 
and facilitate those background checks is a great stride.
    Mr. Porter. Thank you. And, Dr. Dean, you mentioned you 
didn't feel that this type of legislation really is the right 
mechanism. How would you suggest States that are having 
challenges better find the information they need to make the 
right choice in their teachers?
    Dr. Dean. I am not sure that I said exactly that it was not 
the right mechanism. I think the legislation is good 
legislation. My only concern is punishing education for 
something that we can't oversee. We have no control over law 
enforcement or whether other agencies which to contribute that 
information to the Compact.
    I think from our State superintendent down, we all 
encourage and engage in a system now that works for Virginia. 
But, when we go outside Virginia, as I said in my testimony, we 
may go to as many as a dozen or more States to find teachers 
for our school districts.
    It is the unreliability of that information about someone 
from another State that troubles us. So the law--sorry, the 
bill, is a wonderful mechanism. The difficulty I have is only 
the punishment of withholding Federal dollars from departments 
of education in the event a State doesn't join the Compact.
    Mr. Porter. And I think that is well said, Doctor, because 
I would concur, that in the initial writing of the language, 
that was one alternative.
    What I would like to ask is what can we do to help to 
provided incentives to get the districts and actually the 
States and the districts get involved in the Compact? What 
would you suggest?
    Dr. Dean. I think Ms. Uzzell's comments in terms of 
engaging more and more non-Compact States in the activities of 
the Compact to begin to see the advantages of it, have them 
involved in some of the strengths of this, have them involved 
in some of the problemsolving of the Compact.
    I think, certainly, a key issue would be the bringing 
together of a variety of law enforcement groups and school 
people, to see how they can work together to make this work.
    Because, unless they come together to work together on 
solving this, there will be suspicion about why is it you want 
my information, how will you use my information, and I am not 
interested in sharing it if I don't feel as though it is going 
to be used in a profitable, helpful way.
    Mr. Porter. So you feel comfortable you are able to get the 
information you need right now? You are not having a problem?
    Dr. Dean. I wouldn't suggest we are not having problems. I 
mean, the scale that we work on is nothing compared to Clark 
County or Loudoun County, for instance, in Virginia. But for 
our school division, which is large but not as large as 
certainly these mega districts, I would suggest that our 
difficulty only comes when we find that--if, for instance, we 
recruit a teacher out of Indiana, and Indiana does not 
contribute information to the FBI, or Indiana doesn't provide, 
Ohio doesn't, Michigan doesn't, provide information to a source 
that we can readily access to determine background, hiring 
Virginia teachers in Virginia works well, because of the State 
law that we follow.
    Mr. Porter. Yes. And historically hiring from within the 
community you have a better understanding. Again, with a fast-
growing State, our university system has a hard time keeping up 
with the demand. You know, we are growing 6, 7,000 people a 
month. Add to that the number of students and--you have heard 
that discussion.
    And, Dr. Dean, I will comment also. And the school 
districts and the school professionals get blamed for most 
every social problem there is. And I appreciate your comments 
that we also need to look at law enforcement to make sure that 
they are compiling the right information.
    And on that, Chief, I appreciate your comments on the 
bullying and what is happening in the classroom. Have you seen 
any problem with any of the other discussions we have had today 
with any folks that you know in your communities?
    Chief Asselin. Well, with regards to the background checks, 
I was talking to Dr. Dean. The information that we receive, I 
think as between police departments, or between the repository 
in Maine, which is the State Bureau of Identification, I think 
is far more concise or accurate than what the school districts 
would receive.
    I think they would receive conviction data only, and not 
arrests as it may be. I don't know a remedy for that. In fact, 
it may have changed. I know that Jeff Harman, who was a former 
member--who was the lieutenant colonel of the State police 
worked hard on this system, and inroads are still being made to 
make it work better. I think that we have some time to go 
before it is perfect, but we are working on it continuously.
    On a local level, I am seeing--I was seeing resistance. My 
own daughter is a teacher. And she resisted. But she--obviously 
she wanted a job, she did comply. We had one teacher to sort of 
circumvent the system came to me and wanted me to take her 
fingerprints rather than the State police who was doing it at 
the time.
    But by now we have gone over the hump, it has been a couple 
of years now. And, you know, I think it is working well. The 
processing custodians, volunteers, aides. And, yes there are a 
few that have failed to divulge their criminal history and have 
been terminated. We try to work very well with the schools in 
my area.
    But, when school superintendents call me and say, Butch, 
what can you tell me about Mr. Jones, we are very reluctant to 
provide that information at a local level, only because we are 
not sure that the information is always accurate. There could 
be some mistakes made on the person who inputs the data into 
the system.
    You know, they might put an incorrect disposition. So we 
don't rely on that. We always refer them to the State Bureau of 
Identification, which does work. But we don't--but again, 
people that are arrested are not necessarily guilty of 
anything.
    But, at the same token, those people that are arrested, 
just say for a sexual-related offense, may have the indictment 
dismissed or the charges dismissed because of the age of the 
victim, they are not willing to testify. So I can see a 
balancing act being done here to get the information out, but 
make sure that we are not unjustly labeling someone as a 
predator or someone who has--may have been at one time made a 
mistake.
    But, anyway, I think we are making headway in Maine.
    Mr. Porter. Thank you.
    Well, what I have heard so far, if I can summarize some 
suggestions. We should look at possibly expanding the Compact, 
in individual districts, to include maybe contractors, those 
that do renovation, or other services. We should look at that. 
Make sure that that is consistent.
    Encourage, not penalize, as far as the Act itself, would 
help these other 29 States find a way to--financially if they 
are having a challenge, to take care of it, or at least have 
the incentive in place, whether it be in the form of grant 
dollars or something else to encourage.
    And I sense that there is a consensus that the Compact is 
still a good direction to go. As long as it is--the other 29 
States have the ability to be involved. Also, I am going to 
encourage that we do additional study to get some additional 
information as we move forward with the legislation.
    So I appreciate everyone's testimony today. Is there 
anything else that you would like to add?
    Ms. Uzzell. At the risk of doing this, but I feel like I do 
need to correct an issue, because I think I have heard several 
times people say that some States don't contribute their 
fingerprints to the FBI. And all 50 States do contribute. There 
are probably three States, it is a very complex process. I 
actually thought how I was going to do this in 5 minutes or 
less.
    But, the--the III is a pointer index system. III is a 
fingerprint based system that the FBI has. FBI went to III, 
because then they could point to an individual's record and 
reach out to the States and grab all of the arrests that State 
had for that individual that was indexed--their fingerprints 
have been submitted.
    There are only three States that I am aware of that are not 
III participants, but those States still take their fingerprint 
cards of arrested individuals and submit it up to the FBI. So 
when you do a query, you do get information from all 50 States. 
You probably are missing some records that are either, as I 
said rejected or noncriterion offenses, or if some local agency 
never sent that card up there.
    But, I think that it would be a mistake to walk away, not 
thinking that all 50 States are submitting their criminal 
history information. The Compact allows that dissemination to 
be more complete. But the system we have in place now is a very 
effective system. And for the most part, it captures what we 
are looking for.
    The Compact is a way to enhance and further that 
decentralization that was started back in 1978 when III went 
into effect. So I just feel the need to clarify that. And then 
again, I would like to offer, as chairman of the Compact 
council, any services I can to do some good analysis on these 
records that are brought up, and help you, Congressman Porter, 
be able to bring that information with real factual analysis of 
what we are missing.
    If there is something that we are not aware of, we need to 
fix it. And finally, the other thing I will just say is that as 
the chairman of the Compact, a member of that council, we are 
so appreciative that you have taken the time to think about the 
Compact as a mechanism. We thought we were really our own 
little venture out there pushing this issue. So I really 
commend you for recognizing the value of this and having this 
hearing.
    Mr. Porter. Thank you very much. Anyone else like to add?
    Ms. Belak. Thank you. You had asked me earlier about where 
some things possibly go wrong. And do I want the Committee to 
be aware that we do not believe that passage of H.R. 2649 will 
solve all of the problems of the Nation.
    Certainly we have had some problems where we found out that 
the employee had encountered similar misconduct in other 
districts, but that misconduct might not have risen to the 
level of a crime. So it is something that we would hope and 
expect other school districts to share with us, particularly 
through confidential references, but for some reason they do 
not.
    We can't turn to Congress to solve that problem, we have to 
turn to the States and the boards of education to work on that. 
But where we do turn to Congress for assistance is to help us 
make sure that the information that we have that is relevant to 
criminal background is made available to every school district 
that asks for employment purposes for the people in our 
schools.
    Mr. Porter. Thank you.
    Chief Asselin. I would just make a quick comment. When 
police departments share information between each other, it is 
intelligence information. And it may involve actions of a 
person where he hasn't been charged, but it is questionable 
behavior.
    I think the law prevents us, I think, from disseminating 
that information to schools. I think we need to look at opening 
up the portal, so to speak, to be allowed to share that 
information with school administrators. For instance, if a 
juvenile was to commit a crime of violence outside of the 
school district area, we can't share the information with the 
school district. But if he commits, the same juvenile was to 
commit a crime on school property, we can talk about it freely 
with the school administrator.
    But to expand that further to adults, I think the police 
departments have a great deal of information in our files, in 
our computer systems, database about the particular activity, 
and being able to have the freedom to share that, my--because I 
think we shouldn't rely totally on criminal history checks. I 
think pick up the phone and, you know, doing background checks, 
a thorough background check will bring up a lot of this 
information, and probably the first people that should be 
contacting is the police department where this person once 
resided in.
    Mr. Porter. I know we spent a lot of time today talking 
about criminal activity, sexual predators. I do appreciate also 
that whole other area of concern, especially after the 
catastrophe and the crises in Russia and what is happening 
around the world.
    And I know that this Committee is going to spend additional 
time looking at safety in the classroom. But, as we look at the 
world since September 11th, it has changed a lot of things that 
we do. But, as parents we also trust in our local governments 
and our school districts to make sure that they take every step 
available.
    And with that, I again want to applaud the districts and 
certainly Clark County, but those folks that are here today for 
your concerns and your insights, because I can't imagine the 
pain of a parent that would have a son or daughter that was 
hurt while at school. And what pain that can cause for a child 
in his whole lifetime, in that area where they trust their 
teacher and trust their community.
    So, again, I want thank you all for being here for your 
testimony. I appreciate your insights and your written 
testimony, and note that there will be opportunity to submit 
additional testimony. So thank you all for being here. And 
thank you again for your input. The meeting is adjourned.
    [Whereupon, at 11:03 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

     Additional Statement of Donna Uzzell, Submitted for the Record

[GRAPHIC] [TIFF OMITTED] T6150.001

[GRAPHIC] [TIFF OMITTED] T6150.002

[GRAPHIC] [TIFF OMITTED] T6150.003

[GRAPHIC] [TIFF OMITTED] T6150.004

[GRAPHIC] [TIFF OMITTED] T6150.005

[GRAPHIC] [TIFF OMITTED] T6150.006

[GRAPHIC] [TIFF OMITTED] T6150.007

[GRAPHIC] [TIFF OMITTED] T6150.008

[GRAPHIC] [TIFF OMITTED] T6150.009

[GRAPHIC] [TIFF OMITTED] T6150.010

[GRAPHIC] [TIFF OMITTED] T6150.011

       National Crime Prevention and Privacy Compact Signatories

    Montana
    Georgia
    Nevada
    Florida
    Colorado
    Iowa
    Connecticut
    South Carolina
    Arkansas
    Kansas
    Oklahoma
    Maine
    Alaska
    New Jersey
    Minnesota
    Arizona
    Tennessee
    North Carolina
    New Hampshire
    Missouri
    Ohio
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6150.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6150.013
                                 
 List of States and Territories Submitting Civil User Fee Fingerprints 
                             Electronically

    Alabama
    Alaska (Compact State)
    Arizona (Compact State)
    California
    Delaware
    District of Columbia
    Florida (Compact State)
    Hawaii
    Idaho
    Illinois
    Indiana
    Kansas (Compact State)
    Louisiana
    Maine (Compact State)
    Maryland
    Massachusetts
    Michigan
    Minnesota (Compact State)
    Mississippi
    Missouri (Compact State)
    Montana (Compact State)
    Nebraska
    New Jersey (Compact State)
    New Mexico
    New York
    North Carolina (Compact State)
    North Dakota
    Ohio (Compact State)
    Oklahoma (Compact State)
    Oregon
    Pennsylvania
    Rhode Island
    South Dakota
    Tennessee (Compact State)
    Texas
    Utah
    US Virgin Islands
    Virginia
    Washington
    West Virginia
    Wyoming

     Compact States That Do Not Submit Civil User Fee Fingerprints 
                             Electronically

    Arkansas
    Colorado
    Connecticut
    Georgia
    Iowa
    Nevada
    New Hampshire
    South Carolina

                                 <all>

</pre></body></html>
